TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Progress Has Been Made but Further
                         Improvements Are Needed in the
                        Administration of the Low Income
                          Taxpayer Clinic Grant Program



                                         September 2005

                              Reference Number: 2005-10-129




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Web Site          | http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 21, 2005


MEMORANDUM FOR NATIONAL TAXPAYER ADVOCATE



FROM:                        Pamela J. Gardiner
                             Deputy Inspector General for Audit

SUBJECT:                     Final Audit Report – Progress Has Been Made but Further
                             Improvements Are Needed in the Administration of the Low Income
                             Taxpayer Clinic Grant Program (Audit # 200510009)

This report presents the results of our review of the Low Income Taxpayer Clinic (LITC) grant
program. The overall objective was to determine whether the LITC grant program is effective
and is in compliance with legal requirements. We also evaluated corrective actions taken by the
Internal Revenue Service (IRS) in response to a prior report we issued in May 2003.1

Synopsis
Since taking over responsibility for the LITC program in May 2003, the Taxpayer Advocate
Service (TAS) has focused on the quality of the clinics by establishing standards of operation
and communicating these requirements in the Low Income Taxpayer Clinic Grant Application
Package and Guidelines (Publication 3319). The TAS also provides training on these standards
to clinics during site visits and at its annual LITC program conference.
In response to a recommendation in our prior report on the LITC program, the IRS stated it
would establish performance measures to determine the success of the LITC program. However,
it does not appear the IRS followed through to implement this recommendation. The TAS’ focus
is to have at least one clinic in every State that represents taxpayers in tax controversies with the
IRS and one to educate those taxpayers for whom English is a second language. However, the
TAS has not developed or communicated the overall program goals and performance measures
that would enable it to better measure the success of the LITC program. Measures such as

1
 Improvements Are Needed in the Oversight and Administration of the Low-Income Taxpayer Clinic Program
(Reference Number 2003-40-125, dated May 2003).
              Progress Has Been Made but Further Improvements Are Needed in
                 the Administration of the Low Income Taxpayer Clinic Grant
                                           Program


customer satisfaction, quality of service, timeliness of service, number of taxpayers assisted, and
type of service provided are areas which could be evaluated against goals so Congress and other
stakeholders can evaluate the benefits provided by the program in comparison to the money
spent.
The number of taxpayers assisted, as reported by the clinics, is not reliable. Some clinics did not
submit the required interim and final reports or did not submit the reports timely. For the reports
that were submitted, the information contained in the reports was not validated by the TAS.
Moreover, the methods used by the clinics to report their results were inconsistent. These
inconsistencies prevented us from determining the accuracy of the numbers reported. Reports
were generally in narrative format. Some were very detailed in providing the number of
taxpayers assisted and the type of assistance provided, while others were brief and vague. To
improve the consistency of the reports, the TAS developed new forms for clinics to use for the
2006 grant period.
In 2004, the TAS performed 77 site visits to the clinics and attended 17 outreach sessions
provided by the clinics. However, these site reviews were not comprehensive or timely. During
the site reviews, the TAS did not validate information contained in the clinics’ interim and final
yearend reports or review the information needed to determine whether the clinics were in
compliance with legal requirements. Furthermore, the TAS did not visit new clinics until after
the grant funds were awarded.
Some clinics were not in compliance with their Federal tax obligations. During the application
period for the 2004 grants, 5 of the 134 clinics were awarded grant funds of $154,300 and were
not in compliance with their Federal tax filing and/or payment requirements. These 5 clinics
subsequently received $127,500 in grant funds for 2005. The TAS revised the 2005
Publication 3319 to emphasize that clinics must be in compliance with their Federal tax
responsibilities. However, during the application period for the 2005 grants, nine clinics were
not in compliance with their Federal tax requirements. These 9 clinics owed approximately
$850,000 in taxes and had not filed 9 tax returns. The TAS awarded the 9 clinics $513,500 in
grant funds for 2005. While the TAS indicated it would conduct compliance checks on
organizations applying for a 2005 grant, no one within the LITC program office had access to the
computer system needed to verify tax compliance until April 2005. Moreover, the TAS does not
have procedures in place to ensure the verification of tax compliance is comprehensive and
timely.

Recommendations
We recommended the National Taxpayer Advocate (NTA) establish goals and performance
measures for the LITC program to assist Congress and the IRS in evaluating the success of the
program. The NTA should suspend or terminate grant funds for clinics that are not in
compliance with reporting requirements, provide guidance to indicate whether a clinic may
                                                                                                  2
              Progress Has Been Made but Further Improvements Are Needed in
                 the Administration of the Low Income Taxpayer Clinic Grant
                                           Program


receive funding solely for making referrals to other clinics, and provide guidance as to the types
of media broadcasts and articles that will qualify under the LITC program. We also
recommended the NTA establish a policy to visit potential new clinics before awarding grant
funds. During indepth site visits, TAS representatives should verify information reported by the
clinics and that clinics are following all LITC program requirements. Moreover, the NTA should
develop a sampling methodology to prioritize site visits to clinics based on indications that
clinics are preparing tax returns or charging fees. Finally, we recommended the NTA establish
procedures to check for tax compliance before awarding LITC program grant funds and freeze
funding for clinics that fail to become compliant with their tax responsibilities.

Response
The NTA generally agreed with our results and recommendations. The TAS will identify
possible goals and performance measures for the LITC program. Once finalized, the goals and
performance measures will be included in Publication 3319. The TAS will include language in
Publication 3319 to clarify that a controversy LITC solely making referrals to another LITC will
not be funded. Publication 3319 will also indicate that indirect outreach must include
substantive information and that clinics should strive to include face-to-face contact as a primary
method for educating taxpayers. The TAS will develop a weighted criteria list to determine
which clinics should be visited each year and will visit new clinics prior to making funding
decisions to the extent that time and staffing limitations allow. The TAS contacted all of the
clinics we identified as not compliant with Federal tax requirements and informed them their
grants will be terminated if the noncompliance is not resolved within a reasonable time period.
Furthermore, the TAS will verify that all 2006 grantees are compliant with all Federal tax
responsibilities prior to awarding grant funds.
The NTA agrees the problem of untimely reporting must continue to be addressed; however, the
NTA believes that, in most cases, suspending funds may not be effective. The TAS will
continue to use untimely reporting by the clinics as a factor in its funding decisions of future
grant periods and in selecting clinics for site visits. The TAS will review and strengthen
procedures for following up on late reports and for taking the necessary corrective actions.
Reporting requirements will also be discussed at the 2005 LITC Annual Conference.
The TAS will consult with other Federal Government grant-making agencies to determine how
these agencies verify grantee information while still maintaining client confidentiality.
However, the NTA noted that the LITC grant program is unlike any other Federal Government
agency program in that the IRS, the grantor, is the opposing party in any tax controversy handled
by the clinics, which could raise concerns about protection of attorney-client data and
information. Additionally, the NTA indicated that the recommendation to develop a method to
verify the accuracy of information provided by clinics in their interim and final reports has


                                                                                                   3
              Progress Has Been Made but Further Improvements Are Needed in
                 the Administration of the Low Income Taxpayer Clinic Grant
                                           Program


already been adequately addressed by the TAS’ three-tier site assistance visit process.
Management’s complete response to the draft report is included as Appendix VI.

Office of Audit Comment
Publication 3319 states that clinics not timely reporting may have their grant funds suspended or
terminated. As such, the TAS should have a consistent process for following up with the clinics
that have not filed timely to advise them that the grant funds will be suspended or terminated and
follow through with these actions if clinics do not comply by the deadline set. If the NTA is
unable to determine an adequate method of verifying compliance with grant requirements, we
believe the NTA should elevate this concern to Congress for a potential legislative remedy.
Although the site visit assistance checklists require that information provided by clinics in their
interim and final reports are to be reviewed, the site assistance visit process does not contain a
method to verify the accuracy of information provided by clinics in their interim and final
reports. As such, we do not believe the related TAS response addresses our recommendation.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                                  4
                   Progress Has Been Made but Further Improvements Are Needed in
                      the Administration of the Low Income Taxpayer Clinic Grant
                                                Program




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Standards of Operation for the Low Income
          Taxpayer Clinic Program Have Been Established........................................Page 4
          Program Goals and Performance Measures Are
          Needed to Evaluate the Success of the Program...........................................Page 5
                    Recommendation 1:........................................................Page 6
          The Reported Number of Taxpayers Assisted by
          Clinics Is Not Reliable ..................................................................................Page 6
                    Recommendation 2:........................................................Page 9
                    Recommendations 3 and 4: ..............................................Page 10
          Site Reviews Were Not Comprehensive or Timely......................................Page 10
                    Recommendations 5 and 6: ..............................................Page 14
                    Recommendations 7 and 8: ..............................................Page 15
          Some Clinics Are Not in Compliance With
          Their Federal Tax Responsibilities ...............................................................Page 15
                    Recommendations 9 and 10: ..................................................... Page 17


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV – Outcome Measures...............................................................Page 21
          Appendix V – Low Income Taxpayer Clinics per State or Territory ...........Page 22
          Appendix VI – Management’s Response to the Draft Report ......................Page 24
                 Progress Has Been Made but Further Improvements Are Needed in
                    the Administration of the Low Income Taxpayer Clinic Grant
                                              Program




                                             Background

The Low Income Taxpayer Clinic (LITC) grant program was initiated by a provision of the
Internal Revenue Service (IRS) Restructuring and Reform Act of 1998.1 Congress wanted the
LITC program to offer assistance to provide low income taxpayers, who are involved in
controversies with the IRS, with free or nominal cost legal assistance. Another goal of the LITC
program is to provide education of tax rights and responsibilities to taxpayers for whom English
is a second language. The LITC program is not intended to help taxpayers prepare their tax
returns. Clinics are only allowed to prepare tax returns if it is ancillary to the education of a
taxpayer for whom English is a second language and/or when it is necessary to resolve a
taxpayer’s controversy with the IRS.
Since the inception of the program, the total funding for LITC program grants has increased
significantly, from $1.5 million in 1999 to $8 million in 2005. The numbers of clinics and the
States represented have also increased.2 Table 1 shows the funding level, number of clinics, and
States represented each year since the inception of the program.


                         Table 1: LITC Program Grant Funding, Clinics, and
                                  States Represented (1999 – 2005)

                                           Grant           Number of       States/Territories
                          Year
                                          Funding           Clinics          Represented
                           1999          $1.5 million           34                  19
                           2000          $4.4 million           70                  33
                           2001            $6 million          102                  39
                           2002            $7 million          127                  43
                           2003            $7 million          138                  49
                           2004          $7.5 million          134                  51
                           2005            $8 million          145                  51

                     Source: Internal Revenue Bulletins and News Releases.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  States include the District of Columbia and Puerto Rico.
                                                                                                              Page 1
                   Progress Has Been Made but Further Improvements Are Needed in
                      the Administration of the Low Income Taxpayer Clinic Grant
                                                Program



Low Income Taxpayer Clinic Grant Application Package and Guidelines (Publication 3319)
explains the LITC program requirements and award process. To qualify for a grant, an
organization must be an accredited law, business, or accounting school or a nonprofit
organization. Clinics must submit interim and yearend financial statements along with a
description of their goals, strategy, and program results to the IRS. Failure to provide this
required information can result in the loss of grant funding. Clinics with an approved program
plan can receive grant funding for up to a 3-year period.
Clinics that receive grant funding to represent taxpayers in controversies must ensure the amount
in controversy does not exceed $50,000 per case.3 In addition, these clinics must ensure at least
90 percent of the taxpayers they represent have incomes which do not exceed 250 percent of the
poverty level. The poverty level is based on the size of the family unit and is published annually
by the Department of Health and Human Services. Table 2 shows the 2004 poverty levels and
maximum taxpayer income amounts for the LITC program.


                          Table 2: The 2004 Poverty Levels and Maximum
                              Taxpayer Income for the LITC Program

                                                                       Maximum Taxpayer
                              Size of                  Poverty
                                                                        Income for LITC
                            Family Unit                 Level4
                                                                            Program
                                   1                   $9,310                 $23,275
                                   2                   $12,490                $31,225
                                   3                   $15,670                $39,175
                                   4                   $18,850                $47,125
                         For each additional
                                                       $3,180                  $7,950
                             person, add

                       Source: The 2004 Health and Human Services Guidelines.

Congress designated the IRS to provide administrative oversight and guidance for the LITC
program. From the program’s inception in 1999 through April 2003, the Wage and Investment
Division had this responsibility within the IRS. In May 2003, the IRS Commissioner transferred
this responsibility to the Taxpayer Advocate Service (TAS).



3
    Internal Revenue Code Sections 7463 and 7526.
4
    The poverty levels for Alaska and Hawaii are higher than the 48 contiguous states and Washington, D.C.
                                                                                                             Page 2
             Progress Has Been Made but Further Improvements Are Needed in
                the Administration of the Low Income Taxpayer Clinic Grant
                                          Program



This review was performed at the TAS offices in Washington, D.C., and Atlanta, Georgia, during
the period February through June 2005. This audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                       Page 3
               Progress Has Been Made but Further Improvements Are Needed in
                  the Administration of the Low Income Taxpayer Clinic Grant
                                            Program




                                   Results of Review

Standards of Operation for the Low Income Taxpayer Clinic Program
Have Been Established

In May 2003, we reported on a number of problems with the administration of the LITC
program. One action the IRS planned to take to remedy these problems was to establish
standards of operation for the clinics and provide training on these standards.5 Since taking over
responsibility for the LITC program, the TAS has focused on the quality of the clinics by
establishing standards of operation and communicating these requirements in Publication 3319.
The TAS also provides training on these standards to clinics during site visits and at its annual
LITC program conference. These standards of operation include:
   •     Qualified tax expert on staff.
    •    Qualified business administrator on staff.
    •    Internal controls to safeguard assets and determine allowable costs.
    •    Effective publicity and marketing.
    •    Mentoring programs for clinic staff and volunteers.
    •    Networking with other community-based organizations.
    •    Tax library.
    •    Continuing professional education.
    •    Qualified volunteers.
    •    Referral service to assist taxpayers in controversies.
In addition to the standards of operation listed above, the TAS encourages clinics to participate
in a work group to share information and identify best practices. The work groups focus on
topics including IRS notices, financial literacy, multilingual initiatives, offers in compromise,
and the Earned Income Tax Credit.




5
 Improvements Are Needed in the Oversight and Administration of the Low-Income Taxpayer Clinic Program
(Reference Number 2003-40-125, dated May 2003).
                                                                                                    Page 4
               Progress Has Been Made but Further Improvements Are Needed in
                  the Administration of the Low Income Taxpayer Clinic Grant
                                            Program




Program Goals and Performance Measures Are Needed to Evaluate
the Success of the Program

In response to a recommendation in our May 2003 report on the LITC program,6 the IRS stated it
would establish performance measures to determine the success of the LITC program. However,
it does not appear the IRS followed through to implement this recommendation.
We asked TAS officials about the implementation of performance measures for the LITC
program. TAS officials responded stating they are focusing their efforts on the National
Taxpayer Advocate’s overall goal to have at least one clinic in every State that represents
taxpayers in controversies with the IRS and one to educate those taxpayers for whom English
is a second language. The TAS has made significant progress in this area and has almost
accomplished its goal (see Appendix V for coverage of the LITC program by State in 2004
and 2005). The TAS is also taking steps to identify organizations that may be interested in
becoming an LITC in under-represented States and cities with large populations.
Other than this goal to expand the areas covered, the TAS could not identify any other goals or
the performance measures it would use to gauge its progress meeting the goals. The TAS
requires, as stated in Publication 3319, that clinics develop their own individual goals and report
on the progress of those goals; however, the TAS does not have similar overall goals for the
LITC program. Measures such as customer satisfaction, quality of service, timeliness of service,
number of taxpayers assisted, and type of service provided are areas which could be evaluated
against goals so Congress and other stakeholders can evaluate the benefits provided by the
program in comparison to the money spent.
Moreover, communicating the goals and performance measures for this program would help
current and future clinics to better understand their role in meeting the expectations of the LITC
program. The current Publication 3319 does not communicate to prospective clinics the program
goals, challenges, or expectations for the success of the LITC program.
The National Taxpayer Advocate indicated specific concerns related to the performance of the
clinics in the LITC program. These concerns included the following:
    •   Some clinics engage in routine tax preparation.
    •   Some clinics run by academic institutions are not working enough cases.
    •   Some legal aid societies that run clinics lack tax expertise.



6
 Improvements Are Needed in the Oversight and Administration of the Low-Income Taxpayer Clinic Program
(Reference Number 2003-40-125, dated May 2003).
                                                                                                    Page 5
              Progress Has Been Made but Further Improvements Are Needed in
                 the Administration of the Low Income Taxpayer Clinic Grant
                                           Program



To help address these issues, the TAS should establish and communicate the goals and
performance measures so it can set expectations for the clinics; otherwise, it will be difficult to
maintain accountability and ensure the program produces benefits commensurate with the costs.

Recommendation
Recommendation 1: The National Taxpayer Advocate should establish goals and
performance measures for the LITC program to assist Congress and the IRS in evaluating the
success of the program. In addition, the National Taxpayer Advocate should communicate
general expectations derived from these measures to prospective clinics during the application
process and reinforce these measures to grant recipients during the annual LITC program
conference and site visits to clinics.
       Management’s Response: The TAS will assemble a team of TAS personnel and
       LITC representatives to identify possible goals and performance measures for the LITC
       program. In addition, the TAS will observe how other similar grant programs measure
       success. Once finalized, the goals and performance measures will be included in
       Publication 3319.


The Reported Number of Taxpayers Assisted by Clinics Is Not
Reliable

To establish program goals and measures for the LITC program and to evaluate the performance
of the clinics, the TAS will need to take steps to ensure the information reported by the clinics is
accurate and classified properly. We reviewed summary information provided by the TAS and
all interim and final reports submitted by clinics for the 2004 grant period, but we could not
determine the number of taxpayers assisted because of missing reports and inconsistencies.
Clinics are required to submit two reports for each grant year describing their accomplishments,
including the number of taxpayers assisted. The interim report is due July 31 during the grant
year with the final report due March 31 after the year end. The TAS has developed a database to
track the number of taxpayers assisted by each clinic based on these reports.

Some clinics are not submitting reports timely

Clinics are submitting interim and final yearend reports late or not at all. For the 2004 grant
period, of the 134 clinics in the program, 17 clinics were more than 2 weeks late in submitting
their interim reports; 7 of these 17 clinics were over 10 weeks late. One clinic did not submit an
interim report at all. As of April 15, 2005, the TAS had received 39 final reports late and had yet

                                                                                              Page 6
              Progress Has Been Made but Further Improvements Are Needed in
                 the Administration of the Low Income Taxpayer Clinic Grant
                                           Program



to receive final reports for 16 clinics; 7 of these 16 clinics had been more than 2 weeks late with
their previous interim report. These 16 clinics were awarded grants of $626,850, of which
10 were also awarded grants totaling $400,000 for the 2005 grant period. Table 3 shows the
2004 clinics’ compliance with the requirements for submitting reports.


                 Table 3: Status of Interim and Final Reports for 2004

                                                        Interim         Final Report
                        Status of Report
                                                        Report         As of 4/15/2005
               Timely                                     105                 79
               Fewer than 2 weeks late                     11                 39
               More than 2 weeks late                      17                N/A
               Not Received                                 1                 16
                TOTAL                                     134                 134

               Source: The Treasury Inspector General for Tax Administration’s (TIGTA)
               review of the 2004 LITC program files.

The total number of taxpayers assisted by clinics cannot be determined without these missing
reports. Publication 3319 warns clinics their funding may be suspended or terminated if they do
not submit interim and final yearend reports. For the clinics receiving funding in 2004, the TAS
had not suspended or terminated funding for delinquent interim reporting or final reporting as of
April 15, 2005, when we reviewed the reports. To ensure it receives the information needed, the
TAS should suspend or terminate grant funds for clinics not in compliance with reporting
requirements.

Reporting inconsistencies prevent an accurate assessment of the number of
taxpayers assisted

The interim and final yearend reports for the 2004 grant period did not consistently report the
number of taxpayers assisted and the types of assistance provided. These inconsistencies
prevented us from determining the accuracy of the numbers reported. Reports were generally in
narrative format. Some were very detailed in providing the number of taxpayers assisted and the
type of assistance provided, while others were brief and vague.
Most of the clinics that assist taxpayers with tax controversies did not report their results using
an inventory method, so the TAS could not determine how many cases were received, how many

                                                                                             Page 7
              Progress Has Been Made but Further Improvements Are Needed in
                 the Administration of the Low Income Taxpayer Clinic Grant
                                           Program



were in process, and how many were closed in any given period. Because of this, it is not
possible to determine whether taxpayers counted in one report were also counted in the previous
report and will continue to be counted until the case is resolved. This could result in
significantly overstating the number of taxpayers assisted. The 119 clinics funded to work
controversy cases reported assisting 11,296 taxpayers; however, we were unable to determine the
number of taxpayers the clinics received prior to 2004 that could have been included in previous
reports to the IRS.
Some clinics did not provide the number of taxpayers they assisted in tax controversy cases even
though the grants were awarded for that activity. For example, six clinics specifically funded in
2004 to assist both taxpayers with tax controversies and taxpayers for whom English is a second
language reported no tax controversy cases, and three of the six did not report the number of
taxpayers assisted for whom English is a second language. Either they are being funded for
activities they are not performing or they failed to report the information to the IRS.
There is a wide variance in the number of taxpayers assisted with tax controversies as reported
by each clinic. In 2004, the number ranged from no taxpayers assisted to, in 1 instance,
1,303 taxpayers assisted. For the 119 clinics funded to work tax controversy cases, 60 percent of
the clinics assisted 92 percent of the taxpayers. The remaining 40 percent of the clinics, which
were funded approximately $2 million, assisted only 8 percent of the taxpayers with tax
controversies. Based on the information in the reports, we could not determine the cause for the
differences. It could be a reporting error, or, in some instances, it could be due to the complexity
of the cases. However, it is also possible that some clinics are just not helping very many
taxpayers.
There were some clinics that referred tax controversy cases to other clinics for resolution. When
two clinics are involved with one controversy case, it is possible that each reported assisting that
taxpayer, which results in double counting and inefficient use of grant funds. For example,
1 clinic received a grant of $10,150 to assist taxpayers with tax controversy cases and stated it
assisted 17 taxpayers. Nonetheless, this clinic referred 16 of the 17 cases to another clinic. The
remaining case was referred to a pro bono legal group. Internal Revenue Code (I.R.C.)
Section (§) 7526 states a clinic may represent taxpayers or refer taxpayers to qualified
representatives; however, it is unlikely the intent of the law is to provide funding to a clinic
solely for making referrals to other clinics. TAS officials stated they were aware of this situation
and that they advised this particular clinic that referrals to other clinics were not appropriate;
clinics should develop their own pro bono panels. While the issue of referrals is addressed in
Publication 3319, we believe the guidance needs to be clarified to adequately cover this type of
situation.
Methods used by clinics to educate taxpayers for whom English is a second language varied
significantly. These methods included direct consultations; outreach sessions which included
face-to-face contact; booths at community functions; and various media such as radio, television,
and newspapers. Based on the specific examples of activities in clinic reports involving mass

                                                                                             Page 8
              Progress Has Been Made but Further Improvements Are Needed in
                 the Administration of the Low Income Taxpayer Clinic Grant
                                           Program



media, some of the activities appeared to have been more of an effort to publicize the clinic than
an effort to educate taxpayers as to their tax rights and responsibilities.
Information provided over the radio, television, or in print media would likely be less helpful to
individuals than face-to-face outreach sessions or direct contact where taxpayers are present and
can ask questions about their specific issue. Without more information as to the format or
information provided in media broadcasts, it is difficult to determine whether such broadcasts
could be classified as an activity that is intended under the LITC program. Assisting a taxpayer
in person may take a significant amount of time and effort but is counted as assistance to only
one taxpayer. A media broadcast may take the same amount of time and be counted as
assistance to thousands of taxpayers even though the broadcast only provided general
information and did not respond to taxpayer questions. One clinic stated it provided a radio
broadcast to a listening audience of approximately 160,000, of which an estimated 80 percent
were taxpayers for whom English is a second language. The TAS documented that this clinic
educated 160,000 taxpayers for whom English is a second language. We believe further
guidance should be provided by the IRS as to the types of activities that qualify as clinical
activities.
The TAS has acknowledged many of these reporting inconsistencies and developed new forms
for clinics to use when reporting their results. These new forms are part of Publication 3319 to
be used for grant year 2006. The new forms are more specific as to the information requested
and where on the form it should be recorded. For example, the forms request specific
information as to the number of cases open prior to the start of the reporting period, cases opened
during the period, and those closed during the period as well as the type of assistance provided.
The forms also request clinics to provide information specifically related to the number of direct
contacts or consultations with taxpayers for whom English is a second language and to separately
provide the number of radio or television advertisements/appearances or newspaper articles. The
new reporting format should make the reported information more consistent and easier for the
TAS to reconcile and interpret.

Recommendations
To increase the reliability of the total number of taxpayers assisted by clinics, the National
Taxpayer Advocate should:
Recommendation 2: Suspend or terminate grant funds for clinics not in compliance with
reporting requirements as stated in Publication 3319.
       Management’s Response: The TAS agrees it must continue to address the problem
       of untimely reporting; however, the TAS believes that, in most cases, suspending funds
       may not be effective. The TAS will continue its current practice of using timeliness of
       reports as a factor on which it bases its funding decisions for future grant periods. In
       addition, the TAS will use untimely reporting as a factor in determining which clinics
                                                                                                 Page 9
               Progress Has Been Made but Further Improvements Are Needed in
                  the Administration of the Low Income Taxpayer Clinic Grant
                                            Program



        receive site visits. Reporting requirements will also be discussed at the 2005 LITC
        Annual Conference. The TAS will review and strengthen its procedures for following up
        on late reports and for taking the necessary corrective actions.
        Office of Audit Comment: Publication 3319 states that clinics not timely reporting
        may have their grant funds suspended or terminated. As such, the TAS should have a
        consistent process for following up with the clinics that have not filed timely to advise
        them that the grant funds will be suspended or terminated and follow through with these
        actions if clinics do not come into compliance by the deadline set.
Recommendation 3: Provide guidance in Publication 3319 to indicate whether a clinic may
receive funding solely for making referrals to other clinics.
        Management’s Response: The TAS will continue, during site visits, to determine
        whether clinics have pro bono panels to which they can refer cases. In addition, the TAS
        will revise Publication 3319 for the 2007 grant cycle to clarify that a controversy LITC
        solely making referrals to another LITC will not be funded. The TAS stresses this issue
        during its annual training of TAS employees who are responsible for ranking clinic
        applications.
Recommendation 4: Provide guidance in Publication 3319 as to the types of media
broadcasts and articles that will qualify under the LITC program.
        Management’s Response: The TAS plans to emphasize the value and importance of
        direct contact with taxpayers to clinics at the next annual LITC conference. The TAS
        also plans to revise Publication 3319 to indicate that, while advertising is an acceptable
        activity, indirect outreach must include substantive information and clinics should strive
        to include face-to-face contact as a primary method for educating taxpayers.


Site Reviews Were Not Comprehensive or Timely

To ensure the quality of service and compliance with grant funding requirements, we previously
recommended the IRS conduct site reviews of clinics prior to and subsequent to acceptance into
the LITC program.7 The TAS has established procedures for a three-tier site visit process. Initial
site visits are designed to give TAS management basic information about the clinic’s operation.
This includes evaluating office hours, publicity efforts, the clinic facilities, and security of
records. There are two types of indepth site visits that are less frequent and are intended to
address whether the clinics are in compliance with the standards of operation and financial


7
 Improvements Are Needed in the Oversight and Administration of the Low-Income Taxpayer Clinic Program
(Reference Number 2003-40-125, dated May 2003).
                                                                                                   Page 10
                    Progress Has Been Made but Further Improvements Are Needed in
                       the Administration of the Low Income Taxpayer Clinic Grant
                                                 Program



requirements. TAS management also attended some of the clinics’ outreach sessions to educate
taxpayers for whom English is a second language.
In 2004, the TAS performed 77 site visits and attended 17 outreach sessions.8 Table 4 shows the
reviews of clinics performed by the TAS in 2004.


                                 Table 4: Reviews Performed During 2004

                          Tier         Type of Site Visit Review       Number of Reviews

                           1       Initial basic information                     54

                           2       Indepth standards of operation                23
                                   Indepth standards of operation
                           3                                                     0
                                   and financial requirements
                           *       Attended outreach session                     17

                                   Total Reviews                                 94

                        Source: TIGTA’s review of the 2004 LITC program files.

While this is an improvement over prior years, all of the site reviews of new clinics were
performed after the TAS awarded the grant funds to the clinics. In addition, the indepth site
visits do not ensure all program requirements are met and do not verify the reliability of
information reported to the TAS. Furthermore, the site visits are not prioritized to ensure clinics
that do not appear to be following program requirements are visited.

New clinics are not reviewed before awarding grants

The TAS visited 10 of the 12 new clinics which were awarded grants in 2004. However, the
TAS did not visit these clinics until after the grant funds were awarded. We believe, before
granting the funds, the TAS should perform site visits to ensure the new clinics are familiar with
the program requirements and are qualified to assist taxpayers.
We found one example of a problem that could have been prevented by a timely visit. An initial
site visit by the TAS in March 2005 found a returning clinic which had been awarded funds in
2003 and 2004 did not have office space and was operating out of an apartment. The initial
funding for this clinic in 2003 occurred before the TAS assumed responsibility for the LITC


8
    These site visits covered 72 of the 134 clinics.
                                                                                           Page 11
                  Progress Has Been Made but Further Improvements Are Needed in
                     the Administration of the Low Income Taxpayer Clinic Grant
                                               Program



program. The TAS had already funded $50,000 to the clinic for 2004 but, after the site visit, cut
off funding of $30,000 for 2005. If this clinic had been visited before grant funds were initially
approved, the fact that it was not equipped to assist taxpayers would have been identified before
money was disbursed.
TAS officials stated they plan to continue visiting each new clinic within the first 6 months of
operation. For the 2005 grant period, TAS representatives will visit 21 new clinics by the end of
June 2005, and returning clinics will also be selected for reviews as appropriate. TAS officials
stated they do not have the necessary resources to visit sites prior to awarding grants to new
organizations. However, since the TAS was able to visit all but 2 of the new clinics in 2004 and
plans to visit all 21 new clinics in 2005, we believe the resources are available. The TAS needs
to improve its scheduling so the timing of the visits by TAS representatives coincides with the
grant approval process for new clinics.

The TAS does not verify whether clinics meet all program requirements

For indepth site visits, the TAS has developed comprehensive check sheets to determine if the
clinics meet the program requirements. Based on the guidance associated with these check
sheets, the TAS should be checking files to ensure the clinics are assisting qualified taxpayers.
However, we found the indepth reviews only address general information about the clinic and do
not answer the specific questions on the check sheet. TAS officials advised us, to respect the
attorney-client privilege between the taxpayer and the clinic, reviewers do not obtain or validate
specific taxpayer information (e.g., name, Social Security Number, income level, reason for
seeking help, controversy amount, and nominal fee amount, including purpose for fee).
Without requesting this information, the TAS cannot validate that the clinics are complying with
LITC program requirements, including the following:
      •    At least 90 percent of the taxpayers represented by the clinic have incomes which do not
           exceed 250 percent of the poverty level.9
      •    The amount in controversy for any taxable year does not exceed $50,000.10
Of the $7.5 million in grant funds provided to 134 clinics in 2004, approximately $4.7 million
was awarded to 119 clinics to assist taxpayers in tax controversies with the IRS. Since taxpayer
income levels and amounts in controversy are not being verified, the TAS cannot ensure the
$4.7 million in grant funds are being used as required.
Based on an opinion from the IRS Office of Chief Counsel, the TAS has concluded that it cannot
obtain certain information from clinics because it would interfere with attorney-client privilege.

9
    I.R.C. § 7526.
10
     I.R.C. §§ 7463 and 7526.
                                                                                            Page 12
              Progress Has Been Made but Further Improvements Are Needed in
                 the Administration of the Low Income Taxpayer Clinic Grant
                                           Program



This conclusion conflicts with the TAS’ duties as a grant administrator. Certain information
(e.g., the taxpayer’s name, Social Security Number, income level, reason for seeking help,
controversy amount, and nominal fee information) could be requested and obtained from intake
sheets and clinic-created listings to validate program requirements without receiving documented
discussions and correspondence between the taxpayer and clinic. The Office of Management
and Budget Uniform Administrative Requirements for Grants and Agreements With Institutions
of Higher Education, Hospitals, and Other Non-Profit Organizations (Circular No. A-110)
Section 53(e) states the Federal Government awarding agency has the right of timely and
unrestricted access to any books, documents, papers, or other records or recipients that are
pertinent to the awards, in order to make audits, examinations, excerpts, transcripts, and copies
of such documents. As such, we believe the TAS should develop a method to obtain information
necessary to determine whether the clinics are meeting program requirements without infringing
on attorney-client privilege.

Information in the clinics’ reports is not verified during site visits

Based on our review of program files and discussions with TAS officials, information reported
by the clinics for the 2004 grant period in the interim and final reports was not verified during
the site visits. This increases the risk of misreporting and reduces the reliability of information.
Because of the number of clinics, it would be difficult to verify all information within the interim
and final reports. However, sampling the information for some of the clinics to verify the
information reported would help to evaluate and verify the reliability of the information
provided.

Site visits are not prioritized to evaluate clinics which appear to be performing
routine tax return preparation

Because the IRS has another program, known as the Volunteer Income Tax Assistance Program,
to assist taxpayers with tax return preparation, the LITC program is not intended for this purpose.
As such, clinics are only allowed to prepare tax returns if it is ancillary to the education of a
taxpayer for whom English is a second language and/or when it is necessary to resolve a
taxpayer’s controversy with the IRS. However, some clinics appear to be doing routine tax
return preparation. During 2004, 76 (57 percent) of the 134 clinics reported they prepared a total
of 22,819 tax returns. Moreover, 25 of these clinics accounted for 94 percent of the total number
of returns prepared. Furthermore, some clinics provided copies of flyers advertising free tax
preparation in their interim and final yearend reports to the TAS.
In addition, some clinics were charging fees to prepare tax returns. Clinics are allowed to charge
a nominal fee to taxpayers in addition to requesting reimbursement for expenses, such as filing

                                                                                            Page 13
              Progress Has Been Made but Further Improvements Are Needed in
                 the Administration of the Low Income Taxpayer Clinic Grant
                                           Program



fees for Tax Court. In 2004, 4 clinics reported charging a total of $41,528 in nominal fees.
Seven other clinics indicated in their grant applications they may charge a nominal fee but did
not report any fees to the TAS. Although clinics can charge a nominal fee, Publication 3319
prohibits clinics from charging fees for preparing tax returns. Nonetheless, we found two clinics
that appear to be charging fees to prepare tax returns.
   •   A clinic received a grant of $50,000 and charged taxpayers $18,861 in fees during 2004.
       This clinic charged taxpayers a fee of one-fourth of 1 percent of their projected gross
       income to prepare their tax returns. For example, the clinic would charge a taxpayer that
       earned $20,000 a fee of $50 for tax return preparation. This clinic disclosed this
       information on its application and during its interim and yearend 2004 reports.
   •   A clinic received a grant of $50,000 and charged taxpayers $15,522 in fees during 2004.
       This clinic stated it solicits donations of $20 from taxpayers who used its tax preparation
       services and received refunds. This clinic stated on its application it would not charge
       fees but did not disclose it solicits donations from taxpayers for tax preparation. Only in
       its yearend 2004 report did the clinic mention soliciting donations for tax return
       preparation.
The TAS has emphasized to clinics that tax return preparation must be related to the LITC
program requirements, and clinics cannot charge fees for tax return preparation. However, it did
not appear that the TAS contacted or visited these two clinics to warn them that their practices
appeared to violate program requirements. TAS officials recently told us the LITC program
office will complete an indepth site visit to at least 25 percent of the clinics funded in 2006. To
ensure grants are used as intended, we believe the TAS should review interim and yearend
reports for any indications that clinics are not following the intent of the grant program and
prioritize site visits to these clinics to further evaluate the clinics’ practices.

Recommendations
The National Taxpayer Advocate should develop:
Recommendation 5: A policy to conduct initial site visits for potential new clinics before the
TAS awards grant funds.
       Management’s Response: The TAS will visit new clinics prior to making funding
       decisions, to the extent that time and staffing limitations allow.
Recommendation 6: A method to obtain information necessary to verify clinics are
following all LITC program requirements, including taxpayer income levels, and controversy
limits.
       Management’s Response: The TAS will consult with other Federal Government
       grant-making agencies to determine how these agencies verify grantee information while

                                                                                           Page 14
              Progress Has Been Made but Further Improvements Are Needed in
                 the Administration of the Low Income Taxpayer Clinic Grant
                                           Program



       still maintaining client confidentiality. In addition, the TAS revised Publication 3319 to
       include new reporting forms to help in the evaluation of clinics’ compliance with LITC
       program requirements. However, the National Taxpayer Advocate noted that the LITC
       grant program is unlike other such Federal Government agency programs in that the
       grant-making agency, the IRS, is the opposing party in any tax controversy handled by
       clinics. This raises specific concerns about protection of client data and information.
       Office of Audit Comment: If the National Taxpayer Advocate is unable to determine
       an adequate method of verifying compliance with grant requirements, the National
       Taxpayer Advocate should elevate this concern to Congress for a potential legislative
       remedy.
Recommendation 7: A method to verify the accuracy of information provided by clinics in
their interim and final reports.
       Management’s Response: The TAS indicated that the corrective action for this
       recommendation has been completed by a three-tier site assistance visit process which is
       intended to ensure clinics use grant funds appropriately and effectively and are
       complying with the terms and conditions of the LITC program.
       Office of Audit Comment: Although the site visit assistance checklists require that
       information provided by clinics in their interim and final reports is to be reviewed, the
       site assistance visit process does not contain a method to verify the accuracy of
       information provided by clinics in their interim and final reports. As such, we do not
       believe the TAS response addresses our recommendation.
Recommendation 8: A sampling methodology that prioritizes clinics based on indicators,
including tax return preparation and fees charged, in clinics’ applications and in their interim and
final reports.
       Management’s Response: The TAS will develop a weighted criteria list to
       determine which clinics should be visited each year.


Some Clinics Are Not in Compliance With Their Federal Tax
Responsibilities

To receive grants to assist taxpayers with tax controversies and/or to educate taxpayers for whom
English is a second language about their tax rights and responsibilities, it is important that clinics
be compliant with their own Federal tax responsibilities. However, during the application period
for the 2004 grants, 5 of the 134 clinics awarded grant funds totaling $154,300 were not in
compliance with their Federal tax filing and/or payment requirements. These 5 clinics


                                                                                             Page 15
                Progress Has Been Made but Further Improvements Are Needed in
                   the Administration of the Low Income Taxpayer Clinic Grant
                                             Program



subsequently received a total of $127,500 in grant funds for 2005, with 1 clinic receiving
increased funding from 2004 to 2005.
During the application period for the 2005 grants, nine clinics, including three of the five from
the 2004 application period, were not in compliance with their Federal tax requirements. These
9 clinics owed approximately $850,000 in taxes and had not filed 9 tax returns. The TAS
awarded the 9 clinics a total of $513,500 in grant funds for 2005.
     •   A clinic was awarded a grant of $85,000 for 2004; however, this clinic did not submit the
         required final yearend financial report for 2002 and did not operate the clinic in 2003. In
         addition, this clinic changed its name and Employer Identification Number on its
         2004 application. The Department of Health and Human Services, which monitors the
         payment of grant funds, recommended the TAS not fund the clinic for 2004 until the
         clinic’s identity could be confirmed. The TAS did not visit the clinic and did not freeze
         its grant funds. If the TAS had checked for tax compliance, it would have found an
         unpaid tax balance of approximately $800,000 in 2005. Instead, the clinic was awarded a
         grant of $85,000 for 2005.
     •   We also identified a clinic that was tax compliant during the application period but
         became noncompliant during the grant year. This clinic was awarded a grant of $85,000
         for 2005 although it was 7 months late in filing the required 2004 interim report to the
         TAS. In addition, this clinic did not file and pay its employment taxes timely and, by
         March 2005, owed approximately $180,000. The TAS did not freeze its grant funds for
         2005 or conduct any site visits during this period.
The version of Publication 3319 used for awarding 2004 LITC program grants did not explain
that applicants must be in compliance with their Federal tax responsibilities. In May 2004, the
TAS recognized this problem and revised Publication 3319 for the 2005 grant period to explain
that applicants must be in compliance with their Federal tax responsibilities and the TAS will
conduct compliance checks on organizations applying for a 2005 grant. However, no one within
the LITC program office had access to the computer system, known as the Integrated Data
Retrieval System,11 to verify tax compliance during the remainder of the 2004 grant period for
current clinics or during the application and award period for 2005. Although access was finally
provided to the LITC program office in April 2005, the TAS did not have procedures in place to
ensure the verification of tax compliance was comprehensive and performed timely.




11
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                         Page 16
             Progress Has Been Made but Further Improvements Are Needed in
                the Administration of the Low Income Taxpayer Clinic Grant
                                          Program




Recommendations
The National Taxpayer Advocate should:
Recommendation 9: Establish procedures to check for tax compliance before awarding LITC
program grants and consider periodic tax compliance checks during the grant period.
       Management’s Response: The TAS will verify that all 2006 grantees are compliant
       with all Federal tax responsibilities prior to awarding any grants. In addition, the TAS
       will develop formal procedures to ensure no unauthorized disclosure of return
       information occurs when it contacts clinics regarding tax noncompliance. In addition, the
       TAS explained this requirement in the 2005 Publication 3319.
Recommendation 10: Identify and inform current clinics that are not tax compliant to
become compliant or their funds will be frozen and they will be removed from the LITC
program.
       Management’s Response: The TAS stated that all of the clinics we indicated were
       not in compliance with their Federal taxes have been contacted and told their grants will
       be terminated if they do not rectify their noncompliance within a reasonable time period.
       Office of Audit Comment: While the TAS’ corrective action appears to be adequate,
       the TAS further stated that the majority of the tax noncompliance we identified involved
       account errors on the part of the IRS or penalties for which abatement requests are
       pending. We did not find evidence of IRS errors on the accounts identified. As such, we
       will follow up with the TAS to evaluate the documentation used to support this assertion.
       Furthermore, the TAS expressed concern as to its ability to discuss tax liabilities with
       clinics or withhold funding if a clinic is part of a larger academic institution or
       organization. We will also follow up with the TAS to further evaluate its actions in this
       area.




                                                                                         Page 17
             Progress Has Been Made but Further Improvements Are Needed in
                the Administration of the Low Income Taxpayer Clinic Grant
                                          Program



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Low Income Taxpayer Clinic
(LITC) grant program is effective and is in compliance with legal requirements. The scope of
our review included organizations that received grants for Calendar Year 2004. To achieve the
objective, we:
I.     Determined if the Taxpayer Advocate Service (TAS) completed corrective actions from
       prior Treasury Inspector General for Tax Administration recommendations.
       A. Reviewed standards of operation and performance measures developed by the TAS.
       B. Reviewed LITC program site reviews performed by the TAS.
II.    Reviewed LITC program interim and final yearend reports to determine the number of
       taxpayers for whom English is a second language that are being educated about their tax
       rights and responsibilities and the number of taxpayers being assisted in controversies
       with the Internal Revenue Service.
III.   Determined if the TAS verified whether the clinics met the legal requirements that at
       least 90 percent of the taxpayers they represent have incomes which do not exceed
       250 percent of the poverty level (as defined by the Department of Health and Human
       Services) and the amount in controversy for any taxable year did not exceed $50,000.
IV.    Reviewed self-reported data provided by the clinics regarding the preparation of tax
       returns.
V.     Reviewed the LITC program files to determine if the clinics were charging taxpayers a
       fee.
VI.    Determined if the 2004 clinics were in compliance with the filing and payment of all
       required tax returns.
       A. Determined if the TAS researched the clinics for tax compliance.
       B. Determined if the clinics were in Federal tax compliance.
       C. Determined if the clinics that were not in Federal tax compliance also received an
          LITC program grant for 2005.




                                                                                         Page 18
             Progress Has Been Made but Further Improvements Are Needed in
                the Administration of the Low Income Taxpayer Clinic Grant
                                          Program



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Aaron R. Foote, Audit Manager
Joseph P. Smith, Lead Auditor
Janice M. Pryor, Senior Auditor
David P. Robben, Senior Auditor




                                                                                      Page 19
             Progress Has Been Made but Further Improvements Are Needed in
                the Administration of the Low Income Taxpayer Clinic Grant
                                          Program



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Counsel CC
Deputy, National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: National Taxpayer Advocate TA




                                                                       Page 20
                Progress Has Been Made but Further Improvements Are Needed in
                   the Administration of the Low Income Taxpayer Clinic Grant
                                             Program



                                                                                               Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.

Type and Value of Outcome Measure:

    •   Protection of Resources – Potential; $667,800 awarded to 11 organizations that received
        Low Income Tax Clinic (LITC) program grants from the Taxpayer Advocate Service
        (TAS) in 2004 and 2005 that were not in compliance with their Federal tax filing and/or
        payment requirements (see page 15).

Methodology Used to Measure the Reported Benefit:

We researched the Integrated Data Retrieval System1 for all organizations that received LITC
program grants in both 2004 and 2005. The TAS awarded grants to 134 organizations in 2004
and 124 of these organizations also received a grant in 2005.
We identified clinics that had not filed required tax returns and/or had balances owed during the
period the TAS would have reviewed the grant applications. Five organizations that owed
Federal taxes received grants totaling $154,300 for the 2004 grant period. Nine organizations,
3 of which also owed tax during the 2004 grant period, received grants totaling $513,500 for the
2005 grant period. Organizations that are not in compliance with their Federal taxes may be
unsuitable grant recipients to assist taxpayers.




1
 Internal Revenue Service computer system capable of retrieving or updating stored information; it works in
conjunction with a taxpayer’s account records.

                                                                                                          Page 21
                   Progress Has Been Made but Further Improvements Are Needed in
                      the Administration of the Low Income Taxpayer Clinic Grant
                                                Program



                                                                                     Appendix V

 Low Income Taxpayer Clinics per State or Territory

                                             Type of Clinic
                       English As a
     States and                                          Both         Total per    Funding per State
                         Second       Controversy
     Territories                                        Services       State         or Territory
                        Language
                       2004    2005   2004   2005     2004    2005   2004   2005     2004         2005
Alabama                 1       1             1                       1       2    $60,000     $70,000
Alaska                  1                                      2      1       2     50,000      80,000
Arizona                                                2       1      2       1    117,399      85,000
Arkansas                               1      1                1      1       2     80,000     110,000
California                      1                      11      12     11     13    653,453     615,000
Colorado                               1      1                       1       1     50,000      50,000
Connecticut                     1      2      2                       2       3    170,000     195,000
Delaware                               1               1       2      2       2     52,000      30,000
District of Columbia    1       1      1       1                      2       2     99,415      99,000
Florida                                1               5       7      6       7    352,800     358,937
Georgia                 1       1      2      2        1       1      4       4    197,000     195,000
Hawaii                                                 2       2      2       2    115,000      82,000
Idaho                                                  1       1      1       1     71,582      80,000
Illinois                1       1      2      2        2       2      5       5    305,250     285,000
Indiana                                1      1        2       1      3       2    140,650     131,000
Iowa                                                   1       1      1       1     85,000      85,000
Kansas                  2       2                      1              3       2     58,000      50,000
Kentucky                                               2       2      2       2    108,000      78,000
Louisiana                              2      2                       2       2    100,000     100,000
Maine                                                  1       1      1       1     85,000      93,000
Maryland                               1      1                       1       1     85,000      60,000
Massachusetts                   1                      2       2      2       3    125,000     158,000
Michigan                                               3       3      3       3    122,667     124,000
Minnesota                                              2       2      2       2    145,000     145,000
Mississippi                            1       1                      1       1     25,000      25,000
Missouri                               1       1       2       2      3       3    199,550     205,000
Montana                                1      1                       1       1     31,725      31,725
Nebraska                                               1       1      1       1     33,250      28,289
Nevada                                                 1       1      1       1     50,000      50,000


                                                                                               Page 22
                   Progress Has Been Made but Further Improvements Are Needed in
                      the Administration of the Low Income Taxpayer Clinic Grant
                                                Program



                                             Type of Clinic
                       English As a
     States and                                          Both         Total per      Funding per State
                         Second       Controversy
     Territories                                        Services       State           or Territory
                        Language
                      2004     2005   2004   2005     2004    2005   2004   2005        2004         2005
 New Hampshire          1       1      1       1                      2       2       81,359       54,118
 New Jersey                            1       1       2       1      3       2      180,000      170,000
 New Mexico             1                                      1      1       1       25,000       31,292
 New York                       1      4       4       12      12     16     17      912,898      928,575
 North Carolina                 1              1       2       2      2       4       94,695      160,000
 North Dakota                                          1       1      1       1       28,500       28,500
 Ohio                   1       1      2       2       4       4      7       7      372,148      277,000
 Oklahoma                              1               2       2      3       2      137,000      115,000
 Oregon                                1       1       1       2      2       3      128,098      160,000
 Pennsylvania                   1      3       3       1       1      4       5      316,479      335,000
 Puerto Rico            1       1                                     1       1       40,000       40,000
 Rhode Island                          1       1       1       1      2       2      150,000      150,000
 South Carolina                                        1       1      1       1       75,000       85,000
 South Dakota                                          1       2      1       2       47,500       97,500
 Tennessee                      1                      1       1      1       2       85,000      123,000
 Texas                  2       3                      4       4      6       7      369,500      356,500
 Utah                   1                                             1       0       47,250             0
 Vermont                                               2       2      2       2       76,564       77,000
 Virginia               1       1                      3       3      4       4      190,000      193,000
 Washington                            1       1       1       1      2       2      125,136      139,000
 West Virginia                         1       1       1       1      2       2       70,208       43,000
 Wisconsin                             1       1       1       1      2       2      159,424      160,000
 Wyoming                                                       1      0       1            0       15,000
         Totals        15       20     35     34       84      91    134     145   $7,479,500   $7,437,436

Source: Low Income Taxpayer Clinic program office.




                                                                                                  Page 23
  Progress Has Been Made but Further Improvements Are Needed in
     the Administration of the Low Income Taxpayer Clinic Grant
                               Program



                                                  Appendix VI

Management’s Response to the Draft Report




                                                         Page 24
Progress Has Been Made but Further Improvements Are Needed in
   the Administration of the Low Income Taxpayer Clinic Grant
                             Program




                                                       Page 25
Progress Has Been Made but Further Improvements Are Needed in
   the Administration of the Low Income Taxpayer Clinic Grant
                             Program




                                                       Page 26
Progress Has Been Made but Further Improvements Are Needed in
   the Administration of the Low Income Taxpayer Clinic Grant
                             Program




                                                       Page 27
Progress Has Been Made but Further Improvements Are Needed in
   the Administration of the Low Income Taxpayer Clinic Grant
                             Program




                                                       Page 28
Progress Has Been Made but Further Improvements Are Needed in
   the Administration of the Low Income Taxpayer Clinic Grant
                             Program




                                                       Page 29
Progress Has Been Made but Further Improvements Are Needed in
   the Administration of the Low Income Taxpayer Clinic Grant
                             Program




                                                       Page 30
Progress Has Been Made but Further Improvements Are Needed in
   the Administration of the Low Income Taxpayer Clinic Grant
                             Program




                                                       Page 31
Progress Has Been Made but Further Improvements Are Needed in
   the Administration of the Low Income Taxpayer Clinic Grant
                             Program




                                                       Page 32
Progress Has Been Made but Further Improvements Are Needed in
   the Administration of the Low Income Taxpayer Clinic Grant
                             Program




                                                       Page 33
Progress Has Been Made but Further Improvements Are Needed in
   the Administration of the Low Income Taxpayer Clinic Grant
                             Program




                                                       Page 34
Progress Has Been Made but Further Improvements Are Needed in
   the Administration of the Low Income Taxpayer Clinic Grant
                             Program




                                                       Page 35
Progress Has Been Made but Further Improvements Are Needed in
   the Administration of the Low Income Taxpayer Clinic Grant
                             Program




                                                       Page 36
Progress Has Been Made but Further Improvements Are Needed in
   the Administration of the Low Income Taxpayer Clinic Grant
                             Program




                                                       Page 37
Progress Has Been Made but Further Improvements Are Needed in
   the Administration of the Low Income Taxpayer Clinic Grant
                             Program




                                                       Page 38
Progress Has Been Made but Further Improvements Are Needed in
   the Administration of the Low Income Taxpayer Clinic Grant
                             Program




                                                       Page 39
Progress Has Been Made but Further Improvements Are Needed in
   the Administration of the Low Income Taxpayer Clinic Grant
                             Program




                                                       Page 40
